No. 20-1114

 

 

IN THE
Supreme Court of the United States

THE AMERICAN HOSPITAL ASSOCIATION, et al.,

Petitioners,
v.

XAVIER BECERRA, in his official capacity as the
Secretary of Health and Human Services, et al.,

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the District of Columbia
Circuit

BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

12,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
